No. 20-8253

BLAINE MILAM
Petitioner,
V.

BOBBY LUMPKIN, DIRECTOR
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT

REPLY IN SUPPORT OF PETITION FOR A WRIT OF
CERTIORARI
Jason D. Hawkins
Federal Public Defender
Jeremy Schepers*
Supervisor, Capital Habeas Unit
jeremy_schepers@fd.org
Northern District of Texas
525 S. Griffin Street, Suite 629
Dallas, TX 75202
214-767-2746
214-767-2286 (fax)

Jennae R. Swiergula
Texas Defender Service
1023 Springdale Rd. #14E
Austin, TX 78721
512-320-8300
512-477-2153 (fax)
jswiergula@texasdefender.org
*Counsel of Record
Attorneys for Petitioner

REPLY IN SUPPORT OF PETITION FOR WRIT OF CERTIORARI
Petitioner seeks review from this Court of the Fifth Circuit’s judgment
affirming the district court’s construction of his habeas corpus application as a
successive petition for a writ of habeas corpus. See Pet. at 4. He is not, contrary to
Respondent’s Brief in Opposition, attempting to appeal the denial of a motion for
authorization to file a successive habeas petition. See Respondent’s Brief in
Opposition to Petition for a Writ of Certiorari (“Br. in Opp’n”) at 15–16 (citing 28
U.S.C. § 2244(b)(3)(E)). Because Petitioner is not seeking review of the denial of a
motion for authorization, Respondent’s jurisdictional arguments against certiorari
fail.
Petitioner seeks review of the construction of his habeas corpus application as
a “second or successive” application subject to 28 U.S.C. § 2244(b). Applying that
provision to bar first-time federal habeas corpus merits review of an intellectual
disability claim violates both the Eighth Amendment and the Suspension Clause. Pet.
at 8–11. As laid out in his petition, Petitioner first sought federal court review of his
intellectual disability claim by filing a Motion for Authorization in the Fifth Circuit.
Id. at 4. The Fifth Circuit ruled that Petitioner could not meet the requirements of 28
U.S.C. § 2244(b). In re Milam, 838 F. App’x 796 (5th Cir. Oct. 27, 2020). Petitioner
then filed a second-in-time habeas application in district court and argued that § 2244
could not constitutionally operate to bar review of a categorical Eighth Amendment
claim. The district court transferred that petition as “second or successive.” Petitioner
argued in the Fifth Circuit that it was not. However, that Petitioner first sought
authorization from the Fifth Circuit to file a second or successive habeas application
1

raising his intellectual disability claim in a separate proceeding does not convert his
petition seeking review of the Fifth Circuit’s affirmance of the district court’s transfer
order into an attempt to seek review of that court’s earlier authorization decision. Nor
was first seeking authorization a concession that the claim is successive.
In the proceedings below and in his petition before this Court, Petitioner does
not challenge any lower court determination that he does not meet the statutory
exceptions to the bar contained in 28 U.S.C. § 2244(b). Instead, he is arguing that
because the Fifth Circuit found he could not meet the statutory requirements for filing
a second or successive petition, application of the statute to his categorical Eighth
Amendment claim renders the statute unconstitutional. Thus, 28 U.S.C. §
2244(b)(3)(E) does not preclude this Court from exercising jurisdiction to review the
Fifth Circuit’s affirmance of the district court’s transfer order. See Br. in Opp’n at 2,
3, 17.
Moreover, Respondent’s argument that this Court should deny certiorari
because Petitioner’s case presents no compelling circumstances, Br. in Opp’n at 17–
26, is belied by the very cases on which Respondent relies, id. at 18–19. Id. Those
cases, initially cited by Petitioner, weigh in favor of granting certiorari by
demonstrating that Petitioner’s case raises a critical question that has arisen in
several other cases: the tension between the Eighth Amendment’s prohibition on the
execution of persons with intellectual disability and the operation of 28 U.S.C. §
2244(b), which may nevertheless permit such executions by precluding federal review
of whether the State lacks the constitutional power to execute an individual.

2

Moreover, Petitioner’s case presents this Court with an opportunity to confront this
question without the need to enter a stay of execution, a rarity for this type of claim.
Finally, Respondent’s argument that the Eighth Amendment “does not prevent
an appellate court from applying constitutionally permissible restrictions on the
filing of successive applications” begs the question by simply assuming that 28 U.S.C.
§ 2244 as applied here is a “constitutionally permissible restriction.” Br. in Opp’n at
19 (citing Felker v. Turpin, 518 U.S. 651, 662, 664 (1996)). As Petitioner has
demonstrated, however, applying § 2244(b) in this manner violates both the Eighth
Amendment and the Suspension Clause. See Pet. at 8–11. In other words, while
§ 2244(b) may be constitutional on its face, is not a constitutionally permissible
restriction as applied to Petitioner in this manner and therefore Respondent’s
reliance on Felker is misplaced.
CONCLUSION
For the foregoing reasons, the petition for a writ of certiorari should granted.

Respectfully submitted,
JASON D. HAWKINS
Federal Public Defender
/s/ Jeremy Schepers
Jeremy Schepers (#304861)
Supervisor, Capital Habeas Unit
Counsel of Record
Office of the Federal Public Defender
Northern District of Texas
525 S. Griffin St., Ste. 629
Dallas, TX 75202
3

214-767-2746
214-767-2286 (fax)
jeremy_schepers@fd.org
Jennae R. Swiergula
Texas Defender Service
1023 Springdale Road #14E
Austin, TX 78721
512-320-8300
512-477-2153 (fax)
jswiergula@texasdefender.org
Attorneys for Petitioner

4

